r1ar   UO   U~    lc:c.4a




                          NATIONAL RAILROAD PASSENGER CORPORATION
                               Oli'FICE OF THE INSPECTOR GENJ<:HAL
                                     OFFICE OF INVESTIGATIONS
                                INVESTIGATIVE CLOSTNG ImpORT

             "T ITLE:         False Statements/Mismanagement            CASE NUMHER:         08-016
             DATE OF REPORT:                Mm'ch     2009       If!)
             REPORT l'REPARED ny:                              SSJr'

             I.         FINnINGS OF FACT AND RECOMMENDATIONS

             A.         FINDINGS OF FACT

                   I.     or received information from the OIG omcc of Audit ("OA") alleging that
                          several managers an~nt the Amtrak _Maintenance
                          facility _       in _ _ made misrepresentations to OA
                          ~g lhe acemate and ]ll'Opel' captme of costs fo\' curs ill
                          _dUl'ing FY 2007.

                  2.      01 conduelecl interviews and reviewed employee emails <U\d determined that
                          five employees violated Amtrak Policy and Procedlll'es PI! Number 2.11,
                          section 7.2 Failure to Cooperatc with the 010, when those employees mado
                          false statenimits mld/or misrepresentations to the oro regarding the
                          intelltionalmiscoC\ing of labor hours in • . "

                  3.      01 issued an Administrative Report to !!!!!!!!!!!!!II• • • • • • _
                                                 011 July 21" 2008. _ 8 response to or dated
                          December I, 2008, indicated that the "~~~E:<1."S!:'l.     actions had been
                          taken against the five employees:
                          reccived a 10%           reduction




            11.         RECOMMENJ)ATIONS

                  1.                                                    taken.

            Chiefinspector:




            E:\my documcllts\08-0IG closing I'cport,doeKPage I of I
